Case No. 20-7668

IN THE
SUPREME COURT OF THE UNITED STATES

MARY JO WEIDRICK, PETITIONER/PLAINTIFF
v.
PRESIDENT JOSEPH R. BIDEN, JR.; UNITED STATES CONGRESS
et al, both personally and professionally,
RESPONDENTS/DEFENDANTS

PETITION FOR REHEARING
L)

Petitioner respectfully requests a Rehearing for the following reasons and

would like to incorporate her statements made in her Motion For Expedited
Consideration received by this Court on June 2, 2021; Petitioner is unsure whether
this court read that pleading, a copy is enclosed. This case is submitted for this
Court to allow Petitioner to immediately speak to her attorney, Mark J. Geragos
-and New York prosecutors Cyrus Vance, Jr. and Letitia A. James for purposes of
stopping this violent terrorism of Petitioner and ensuring all terrorists are properly
indicted and tried in state court:

116

REASON 1
2.) To refresh: This case is not a "national security", "investigation" or
"terrorism" case against Petitioner as Petitioner has never engaged in pro-terrorism
activities, conversations or curiosities, ever. Respondents, named and unnamed,
are on a personal vendetta against Petitioner and have forged all pro-terrorism
materials.

REASON 2
3.)

Since this Court denied Petitioner's Petition for Certiorari on June

7, 2021, Respondent Joseph R. Biden, Jr. and the U. S. Congress et al as well as
unnamed Respondents have continued to violently unbearably rape
Petitioner's brain and body including vagina and engage in all other planks
of this violent terrorism including using local TV media to daily air the smear
campaign.

REASON 3
4.)

Since this Court denied Petitioner's Certiorari request on June 7, 2021, the

terrorist Respondents continue to recruit new persons domestically and
internationally including the G7, possibly Vladimir Putin to participate,
ensuring Americans they will not going to prison for doing so and
"appreciating" any assistance from the foreigners including forging proterrorism materials.

5.)

The list of newly recruited terrorists is shocking and grows daily

including Washington D.C. attorneys; Governors throughout the United States;
authors et al.

REASON 4
Petitioner or TV terrorists have suggested "making a deal" at least 5
times starting in the Obama years; however, they always turn out to be a joke; just
one more plank of terrorism. TV terrorists, and Congresspersons usually indicate
they cannot make a deal because Petitioner's "value is so little".
Petitioner offered a deal only to stop this violence immediately and
thought it might be better for the country; perhaps phasing out persons gradually
from their ill-gotten, abused powerful positions. There is no "deal" however, that
doesn't involve prison and substantial suing of these violent participants who have
destroyed two out of three branches of our democracy.
REASON 5
Many people including named and unnamed Respondents have widespread
knowledge the pro-terrorism materials are forged. Manhattan D.A. Cyrus R. Vance,
Jr., New York Attorney General Letita A. James have been investigating this case
and most likely have those statements and other evidence of this activity and
terrorism.

3,

REASON 6
Petitioner is denied her First, Fourth, Fifth, Sixth, Ninth Amendment rights as
outlined in her Petition for Certiorari including being denied her Fifth, Sixth
Amendment rights to access to her attorney, Mark J. Geragos;---and at minimum,
her First Amendment rights to speak to Manhattan D.A. Cyrus R. Vance, Jr. and
New York Attorney General Letitia A. James.
Petitioner earlier referenced Hamdi and Padilla ; Petitioner believes
Escobedo v. State of IL. 378 U.S. 478 (1964), may also apply wherein this Court
held that:
"....where a police investigation is no longer a general inquiry into an
unsolved crime but has begun to focus on a particular suspect in police custody
who has been refused an opportunity to consult with his counsel and who has
not been warned of his constitutional right to keep silent, the accused has been
denied the assistance of counsel in violation of the Sixth and Fourteenth
Amendments...."
REASON 7
Named and unnamed Respondents 100's to 1,000's of them, are inside
Petitioner's body via assaulting her brain and sexually assaulting her, thus people
she would not allow in her home are allowed inside her brain and hence body
including her vagina which is incredibly horribly violent and a basic violation of
human dignity. They intentionally degrade and violate her for their individual
entertainment.

12.) Named and unnamed Respondents (all persons at ABC, NBC, CBS, CNN,
Fox, C-Span even BBC, etc.) and their guests additionally watch her shower, go to
the bathroom, change clothes, if she were to have sex, etc. 24/7 for 31 1/2 years.
REASON 8
13.)

Petitioner prays and believes she deserves the dignity of a court hearing

instead of screaming in terror as she has done 24/7 for over 31 Y2 years due to lack
of access to the courts. The SCOTUS is the Court of Last Resort.
REASON 9
Add to 'Doctrine of Common Sense':
Clearly Petitioner would have stopped any pro-terrorism activity on 10/31/89
or shortly thereafter IF she had been involved in order to stop the unbearable 24/7
violence.

A legitimate terrorism "investigation" would not involve any plank of this
violence; Petitioner would not even know she was being "investigated".
If Respondents were innocent, they would not object to Petitioner speaking to
her attorney, the prosecutors, the Grand Jury et al; they would welcome the truth.
REASON 10
In first person: This Court will be spared most minutia of named and
unnamed Respondents' violent criminal terrorist activity. Should the Justices need
it, below is a sampler of the testimony I will give at their trial:

5

The Terrorists Opening Salvo: Brief Background and Impact on my
immediate family:
Again, this "increased" social interest in me began in 1989: I never met any
of the men involved, nor for the most part, looked at any of them. I did not
know why things started to change so dark, this terrorism beginning on
10/31/89....
Had moved to Nashville temporarily in early1988 from Atlanta because my
mother had become mentally ill---the diagnosis was adult-onset paranoia
schizophrenia--My mother attempted suicide in January 1986 as "voices" told her to do so;
her "wicked" half-siblings (Don, Sue, Judy) and "wicked" emotionally abusive
stepmother Angela called me to tell me she was my responsibility and they
wouldn't help; my argument was that it was a "family" matter and everyone
had responsibility to my mother. That was my first realization just how
dysfunctional her family was...and apparently ours. I had to drop out of
college (temporarily) to take care of her, allowing her to convalesce with me
at my apartment in Atlanta, GA, shuttling her back and forth to her
numerous surgeries and doctor appointments in Nashville, TN. After
months, she wanted to go back to her house in the slums in Nashville: my
brother did leave Chicago; moved in with her a year to help her but left as he
"couldn't take it".
In that interim I had returned to college and, as an older student, received
my much-awaited Bachelors degree in Marketing in December 1987; moving
to Nashville in early 1988 with the idea of helping my mother with her
issues... staying 6-8 months before going to law school wherever that may be.
I was already 15 years behind other people my age: I had followed my father's
and maternal grandfather's life examples of 'starting at the bottom and
working your way up' as I had become bored with school---my grandfather
started out sweeping floors and ended up a senior level management in a
Fortune 500 (Armco Steel, Cleveland, OH); my father ended up as a lowerlevel manager for a Fortune 100, American Greetings Corp (from Cleveland,
OH to Danville, KY)----Education was not important to my family, both of
them had only high school degrees, but after years of dead-end gig jobs, I
learned times had changed; education was most important and Llooked

forward to law school for years---hopefully Vanderbilt---favorite choice would
have been Harvard but I was adult-poor, it was probably a longshot gradepoint-wise and I was already 31 or so; had also requested law catalogs from
GA and AL law schools etc. as "buffers".
I was to learn mental illness is not like a cold, you can't really take something
to make it go away, nor can you "reason" with such a person that their
"beliefs" are unreasonable and unfounded. She was not willing to
acknowledge her illness nor seemingly wanting to really improve her life;
remained largely uncooperative; I'm certain those are a few of the reasons my
brother left. I was to learn from one of her psychiatrists not to allow such
challenges with her to rise to the level of an "argument", and so I mostly tried
to direct her into healthy activities---to little avail.
In addition to being horrified... and mystified by her mental illness, this was
the first time I had ever been in a slum, a really horrific one, which is where
she had moved as she couldn't keep a job due to her mental illness. Yes,
complete with prostitutes and drug addicts; I would step over needles as I
exercised daily down Elvira Avenue, the street in front of her house. Both her
mental illness and the slums never ceased even to this day to be horrifying,
frightening. Even as a temporary "residence", it never stopped being 'hell' for
me, but due to her compromised mental state, I don't think she cared, or
noticed?
The year 1988 was another recession and I seemed to be competing with local
"venerated" Vanderbilt grads; it took me at least a year to find a job in early
1989, an entry level one as a Marketing Rep for a head-injury rehab
company; disappointing, but I was just "passing through" to law school. Was
assigned to and usually drove weekly to the State of AL calling on
neurosurgeons, neurologists, social workers, hospitals, nursing homes--anyone who might see a medically stable head injured patient.
I was young, attractive-enough, had always been single and had lived for a
decade in a socially active city, Atlanta.---- I knew I was special from the
time I was 16 and great things lay ahead for me....despite the fact I was
many years behind other people my age educationally and professionally...
On the road, I was prepared for "conventioneers", travelling men looking for
"opportunity" and I had no time for them; knew how to travel, be comfortable
and ignore them while traveling among them---my days in Atlanta served me
well...or so I thought.

Thus, I never knew who was "out there".
Late one afternoon in October 1989, I walked into my hotel, the Marriott
Courtyard in Birmingham where I usually stayed; there was no one there
but a table near the door with 3-4 men; a man I had never seen before
leaned toward me as I entered and glared at me stating "She's playing
games with us; we'll take care of her". (I remember his face to this day; it
took me 28-29 years to figure out that was future CIA Director George
Tenet; didn't see the faces of the other men at the table.) I scurried past to
my room, shaken, not knowing who or why they were angry but it was
definitely directed at me.
On October 31, 1989, the terrorism started; it sounded like airplanes diving
toward my mother's house as I lay at night; not knowing they were using
local TV newscasters in TN & AL to recruit terrorists: strangers seemed to
glare at me everywhere I went both in AL and in Nashville; one or more
strangers even growled; store clerks started following me around the stores
as if I was shoplifting; police sirens and train horns seemed to sound
incredibly loud and frequently and started interrupting my thoughts all day
and night whenever I was in my mother's Elvira Avenue house which was
near the RR tracks And then the sirens sounded many places I went. In
Alabama, my clients turned cold, began making nonsensical remarks that I
now call "intel's psycho-babble"; when I drove back at one point, AL state
troopers, maybe 15 or so, were sitting beside the interstate, all turning to
GLARE at me driving past; local police began pulling me over for little
things; people began stalking me EVERYWHERE regurgitating my
thoughts loudly and almost in real time, misconstruing my thoughts and
making up stories that had nothing to do with me but somehow the stalkers
wanted me to think those were "my" stories; they would engage in what I
now call other loud intel-driven "psycho-babble" obviously directed at me.
My employer, co-workers did the same; had never been close to them; was
disappointed by the low-level job and non-professional environment--among other things, I was one of two people there with a college degree; one
of my boss' asked me not to wear a business suit to the office as it
"intimidated" the girls I worked with, so I had complied; once again felt I
had to "dummy" myself down for the people around me---a common thread
among the many "gig" jobs I had. Aren't we supposed to surround ourselves
with people "better" or "more professional' than ourselves so we can
grow?—

Stalkers started calling me "crazy" a lot although I had done nothing.
Others began to make death threats.
I was so scared, I couldn't stop shaking. I couldn't sleep at night; rethinking
the threats made by the stalkers, then the police siren would go off, seeming
to reinforce that thought...or the train whistle would blare loudly to do the
same....there seemed to be someone "out there" nearby in a car, honking
his/her horn in conjunction with my thoughts
I couldn't stop shaking....
My mother was equally changed. Although we rarely talked, she started
calling me "ill" or "sick" although I hadn't discussed this terrorism with her
or use those words. ---She clearly was conspiring with these "bad guys",
these terrorists. As a few examples: I had just adopted a new kitten; when
I took her to the vet, Mobley Vet: the vet participated in the nonsensical but
intimidating, scary intel "psycho-babble"; upon leaving the vet gave me a
booklet on new kitten care. Days later, my mother asked me if I had read it
which was unusual; I replied in the negative; smirking, she suggested I do.
The outside cover was typical of such a booklet; the inside was fading ink
stating things like how horrible I was; that I was mean, ill-tempered, etc.
She smirked the whole time I read; I immediately threw it away, pretending
it never happened.
One day, my mother was going to the grocery; I gave her money and
requested she get some cookies for me. Upon returning, she smirked, gave
me the cookies, and my change; on one of the dollars was handwritten "Hello
from the goons" or whatever I had been screaming in my pillow about the
stalkers and "rapists" clearly inside my brain and body.
She would go out frequently now when she had not prior to this terrorism.
No doubt, at least in part, it was to meet the intel for her instructions. She
called the mental hospital to tell them I was "sick" although, again, I
wouldn't discuss it with her; I was locked in the mental hospital for a two
week increment for the first time; never talked to a psychiatrist or anyone
else.
Had played tennis and had tickets to live productions at the local performing
arts centre: all persons around me started engaging in the intel psychobabble, etc.
Watched at least the monologue of Johnny Carson et al most nights. After
the terrorism began, he, they began engaging in some intel psycho-babble

on-air as well as some guests.--- On the radio, the Nashville DJ's, who I
didn't know were engaging in the intel-smear campaign as well, would know
when I was listening and play something like Patsy Cline's "Crazy".
At least one of the stalking terrorists referred to me in this terrorism as
"falling into a black hole"; I silently wholeheartedly agreed except I didn't
fall; I was pushed. It didn't help that I was dealing with so much family
tragedy at once, alone, but I could deal with them and still go to law
school...It was my government turning into a terrorist organization
everywhere I went and inside my own brain and body that was the problem.
The terrorists had weaponized all persons around me; even more violent,
they weaponized my thoughts by raping them, "giving" them to others to
"regurgitate" back to me, misconstruing them, making fun of them....so that
I tried to stop thinking a "self-destruction" of the brain to stop the
violence in return for one's survival.
My brother had been dying during the initial months of this terrorism; he
died of AIDS at his condo in Atlanta on April 15, 1990, six months after
Respondents began this terrorism. —It is one of the few times I saw the intel
agent/terrorists they have stalking me 24/7; they were sitting in a valley,
forested area behind his condo; honking in conjunction with the MRE; never
taking a moment off....never....
REASON 11
18.)

The case before this Court and the underlying cases may be the most

important cases in front of this Court, ever: This case and the underlying case(s),
at minimum, challenge(s) the integrity of the three individual branches and the
very foundation of our republic, our democracy: The Founders established three coequal branches of the United States in our Constitution specifically to establish a
system of checks and balances, separation of powers among other things to guard
against the very corruption outlined in this case.

lo

t

Two out of three branches of the United States government are intentionally
long term participants in this terrorism, leaving only the Judiciary, specifically this
Court intact.
There is no more sacred space in the universe than inside the human
brain. The brain is who each of us are as individuals and without it, we are not
functioning individuals. For the U. S. government to penetrate one's hallowed
space that makes us "human" much less "individuals" is not only violent, but
counter to our basic existence as a people; as a young democracy. Every
American deserves to be safe from all others including from the United
States government in their own homes....and more so to be safe from all
others including the United States government inside our own bodies.
PRAYERS:

Petitioner hopes and prays this Rehearing request be approved by this
Court immediately; that the next step, maybe BIO'S?, be scheduled immediately
so she and her attorney, Mark J. Geragos, can confer immediately and safely
and she may speak to Manhattan D.A. Cyrus R. Vance, Jr.; New York State
Attorney General Letitia A. James and the Grand Jury immediately and safely
for purposes of stopping this violence, this terrorism immediately and ensuring
our country is restored.
As Petitioner does not know how the SCOTUS calendar works but due
to the violence Petitioner respectfully requests this case be accepted in this Court

1),

within ten (10) days of the date of this Petition for Rehearing and the next step be
scheduled immediately. Respondents have had 31 1/2 years to prepare.
Respectfully submittid,

ati
Mary • eidrick, Petitioner
1300 Rhodes Avenue
Sarasota, FL 34239
941-316-0273

June 24, 2021

aiztAf2to e2-eLA-94/r
D er 21•;..0R1
Sava504e) Co FAc-e,C90(Adaq_ gneD3)
Y1A
......`'

,,,,

tit

,,

CHARLES H. BARKER
MY COMMISSION # GG 143532
EXPIRES: January 15, 2022
Bonded That Notary Public Underwriters

Case No. 20-7668

IN THE
SUPREME COURT OF THE UNITED STATES

MARY JO WEIDRICK, Petitioner/Plaintiff
v.
PRESIDENT JOSEPH R. BIDEN, JR. et al, Respondents/
Defendants

CERTIFICATION PETITION FOR REHEARING

Petitioner certifies the attached Petition for Rehearing is limited to the
grounds specified in SCOTUS Rule 44(1)(2) . It is presented in good faith and not
for delay.

r Jo
June 24, 2021

Petitioner/P1

Case No. 20-7668

IN THE
SUPREME COURT OF THE UNITED STATES

MARY JO VVEIDRICK, PETITIONER/PLAINTIFF
v.
PRESIDENT JOSEPH R. BIDEN, JR.; UNITED STATES CONGRESS
et al, both personally and professionally,
RESPONDENTS/DEFENDANTS

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

MOTION FOR LEAVE TO FILE PETITION FOR
REHEARING OF
PETITION FOR A WRIT OF CERTIORARI BEFORE
JUDGMENT TO THE UNITED STATES COURT OF APPEALS
FOR THE D.C. CIRCUIT and PETITION FOR
REHEARING; REHEARING CERTIFICATE

Mary Jo Weidrick, Petitioner
1300 Rhodes Avenue
Sarasota, FL 34239
Ph.: 941-316-0273

Case No. 20-7668
IN THE
SUPREME COURT OF THE UNITED STATES

MARY JO WEIDRICK, Petitioner/Plaintiff
v.
PRESIDENT JOSEPH R. BIDEN, JR. et al, Respondents/
Defendants

MOTION FOR LEAVE TO FILE PETITION for REHEARING

Mary Jo Weidrick hereby respectfully moves the Court for
Leave to file the Petition submitted herewith.
In support of her Motion, the Petitioner asserts that her claims
as set forth are true, her claims are serious and dignified, and there is no
alternative forum in which adequate and complete relief may be obtained
For the reasons more fully set forth in the pleading, Petitioner respectfully
requests her Motion be granted.

Respectfully submitted,
Mary Jo Weidrick, Petitioner
1300 Rhodes Avenue
Sarasota, FL 34239
941-316-0273

No.

IN THE
SUPREME COURT OF THE UNITED STATES

tiath-tCk —
(Your Name)

— PETITIONER

VS.
eLQ__ — RESPONDENT(S)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPER'S
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes: •
Otit
Peioner
'
has previously been granted leave to proceed in forma pauperis in
the for
owing court(s):
aka°

itioner has not previously been granted leave to proceed in forma
paup• zs in any other court.
0 Petitioner's affidavit or declaration in support of this motion is attached hereto.
0 Petitioner's affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
0 The appointment was made under the following provision of law.
or
0 a copy of the order of appointment is appended.

ed&c UL
V
§4tn a tila1/4a,cic
ta
ti
RECEIVED
JUN 2 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

/

Case No.

ao -1LetaiC

IN THE SUPREME COURT OF THE UNITED STATES

MARY JO WEIDRICK, Petitioner
V. '
PRESIDENT JOSEPH R. BIDEN, UNITED STATES
CONGRESS et al, parties acting in both professional
and personal capacities,

Respondents.

I, Mary Jo Weidrick, hereby certify that on June 24, 2021, I mailed the
Motion for Expedited Consideration of the Petition for Rehearing, to the Clerk for
the Supreme Court of the United States, 1 First Street, NE, Washington DC 20543.
The following Respondents/Defendants were also mailed a copy of same:

Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW, Room 5616
Washington, DC 20530-0001

Mary Jo eidrick, Petitioner

SCOTUS Case No.

IN THE SUPREME COURT OF THE
UNITED STATES

CERTIFICATE OF COMPLIANCE

MARY JO WEIDRICK, Petitioner

.

V

PRESIDENT JOSEPH R. BIDEN, JR.; UNITED STATES
CONGRESS et al, parties acting in both professional and
personal capacities,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify the Petition for
Certiorari Before Judgment contains 3,145 words, less than 15 pages.
I declare under penalty of perjury that the foregoing is true and correct.
Executed June 24, 2021.

o it\cLux

g

Mary Jo eidrick, Petitioner

